      Management Advisory Report



Single Audit of the State of Delaware
      for the Fiscal Year Ended
            June 30, 2013




        A-77-14-00009 | May 2014
Single Audit of the State of Delaware for the Fiscal Year
Ended June 30, 2013
A-77-14-00009
May 2014                                                                Office of Audit Report Summary

Objective                                Finding

To report internal control weaknesses,   The single audit reported that the Delaware DDS did not have
noncompliance issues, and                adequate procedures in place for management’s review of cash
unallowable costs identified in the      drawdowns. In addition, there was a lack of segregation of duties
single audit to the Social Security      within the cash drawdown process because the same person
Administration (SSA) for resolution      prepared and submitted the drawdown.
action.
                                         Recommendation
Background
                                         We recommend that SSA confirm that the DDS implemented
KPMG, LLP conducted the single           appropriate drawdown procedures.
audit of the State of Delaware. SSA is
responsible for resolving single audit
findings related to its Disability
programs. The Department of Labor is
the Delaware Disability Determination
Services’ (DDS) parent agency.
MEMORANDUM
Date:      May 20, 2014                                                              Refer To:

To:        Gary S. Hatcher
           Senior Advisor
           Records Management and Audit Liaison Staff
From:      Inspector General
Subject:   Single Audit of the State of Delaware for the Fiscal Year Ended June 30, 2013 (A-77-14-00009)

           This report presents the Social Security Administration’s (SSA) portion of the single audit of the
           State of Delaware for the Fiscal Year ended June 30, 2013. 1 Our objective was to report internal
           control weaknesses, noncompliance issues, and unallowable costs identified in the single audit to
           SSA for resolution action.

           KPMG, LLP performed the audit. The results of the desk review conducted by the Department
           of Health and Human Services (HHS) concluded that the audit met Federal requirements. In
           reporting the results of the single audit, we relied entirely on the internal control and compliance
           work performed by the KPMG, LLP and the reviews performed by HHS. We conducted our
           review in accordance with the Council of the Inspectors General on Integrity and Efficiency’s
           Quality Standards for Inspection and Evaluation.

           For single audit purposes, the Office of Management and Budget assigns Federal programs a
           Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability Insurance (DI) and
           Supplemental Security Income (SSI) programs are identified by CFDA number 96. SSA is
           responsible for resolving single audit findings reported under this CFDA number.

           The Delaware Disability Determination Services (DDS) performs disability determinations under
           SSA’s DI and SSI programs in accordance with Federal regulations. The DDS is reimbursed for
           100 percent of allowable costs. The Department of Labor is the Delaware DDS’ parent agency.

           The single audit reported that the Delaware DDS did not have adequate procedures in place for
           management’s review of cash drawdowns. 2 In addition, there was a lack of segregation of duties
           within the cash drawdown process because the same person prepared and submitted the
           drawdown. The corrective action plan indicates the DDS updated and implemented new


           1
            State of Delaware, Information on Federal Awards in Accordance with OMB Circular A-133 Year ended
           June 30, 2013, http://accounting.delaware.gov/singleaudit/fy_2013_single_audit_report.pdf (last viewed
           May 13, 2014).
           2
               Id. at finding 2013-037.
Page 2 - Gary S. Hatcher

procedures to ensure the weekly Federal drawdowns are independently reviewed before
submission and to ensure proper segregation of duties. Further, the auditor stated that
drawdowns after the date of the revised procedures included evidence of review by management.

We recommend that SSA confirm that the DDS implemented appropriate drawdown procedures.

Please send copies of the final Audit Clearance Document to Shannon Agee. If you have
questions, contact Shannon Agee at (877) 405-7694, extension 18802
or Shannon.Agee@ssa.gov.




                                            Patrick P. O’Carroll, Jr.

Attachment

cc:
Lynn Bernstein
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
